No.
In The
Supreme Court of the United States
SHAWN GRATE, Petitioner,
v.
STATE OF OHIO, Respondent.

On Petition For Writ Of Certiorari
from The Supreme Court of the State of Ohio,
Supreme Court of Ohio case number, 2018-0968
MOTION FOR LEAVE OF COURT TO PROCEED IN FORMA PAUPERIS

Donald Gallick, Esq.
Counsel of Record
The Law Office of Donald Gallick, LLC
190 North Union Street, Suite 102
Akron, Ohio 44304
(330) 631-6892
ohioappeals@ymail.com
Counsel for Petitioner Shawn Grate

MOTION FOR LEAVE OF COURT TO PROCEED IN FORMA PAUPERIS
The undersigned attorney seeks leave of court to proceed in forma pauperis
because his client is facing a sentence of death and has previously been appointed
indigent counsel for both trial and appeal due to his economic status. Documents
evidencing this indigent status are being proffer forthwith. (Exhibits A and B,
Attached)
Respectfully submitted,
LAW OFFICE OF DONALD GALLICK, LLC
__________________________________
DONALD GALLICK (Ohio Bar #0073421)
190 North Union Street #102
Akron, Ohio 44304
(330) 631-6892
ohioappeals@ymail.com
CERTIFICATE OF SERVICE
The undersigned certifies that a true copy of this Motion for Leave of Court to
Proceed In Forma Pauperis and attachments were sent by regular US mail to the
Ashland County Prosecutor's Office at 10 Cottage Street, #3, Ashland, Ohio 44805,
and to the Ohio Attorney General’s Office at 30 East Broad Street, Columbus, Ohio
43215 on this tenth day of May, 2021.

________________________________
DONALD GALLICK (Ohio Bar #0073421)
2

Supreme Court of Ohio Clerk of Court - Filed January 04, 2019 - Case No. 2018-0968

Supreme Court of Ohio Clerk of Court - Filed July 16, 2018 - Case No. 2018-0968

IN THE COURT OF COMMON PLEAS, ASHLAND COUNTY, OHIO
GENERAL DIVISION
STATE OF OHIO,
Plaintiff,

CASE NO. 16-CRI-187

vs.
SHAWN M. GRATE,
Defendant.

JUDGMENT ENTRY (JE85)
SENTENCING ORDER

This case came before the Court for sentencing on June 1, 2018. Present for
hearing were the Defendant, Shawn M. Grate, Counsel for Defendant, Robert H.
Whitney, Esq. and R. Rolf Whitney, Esq., and Ashland County Prosecuting Attorney
Christopher R. Tunnell.
OVERVIEW OF PRIOR PROCEEDINGS
This case came on for jury trial on April 9, 2018 through May 7, 2018, inclusive of
jury selection and the presentation of evidence during the initial trial phase. The jury
returned verdicts of Guilty as to Count One, Specification One to Count One,
Specification Two to Count One, Count Two, Specification One to Count Two,
Specification Two to Count Two, Count Three, Count Seven, Specification One to Count
Seven, Specification Two to Count Seven, Count Eight, Specification One to Count
Eight, Specification Two to Count Eight, Count Nine, Specification One to Count Nine,
Count Ten, Specification One to Count Ten, and Count Twelve.

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

The jury did not render verdicts on the remaining offenses and specifications. On
May 2, 2018 the Defendant knowingly, voluntarily, and intelligently entered pleas of
guilty as to Counts Four, Five, Six, Eleven, Thirteen, Fourteen, Fifteen, Sixteen,
Seventeen, Eighteen, Nineteen, Twenty, Twenty-one, Twenty-two, and Twenty-three,
as well as all related specifications to the primary offenses set forth in each of those
Counts. The trial on the remaining Counts continued, with the jury returning verdicts of
guilty as to Counts One, Two, Seven and Eight, together with their related
specifications, on May 7, 2018.
On May 4, 2018 the Defendant, in writing, waived his right to a jury trial as to the
Sexually-Violent Predator Specifications attached to Counts Nine and Ten of the
indictment, and consented to the Court determining those two specifications if and after
the jury returned its verdicts as to the Count Nine and Count Ten offenses, and their
related sexual motivation specifications.
On May 11, 2018 a bench trial/evidentiary hearing was conducted regarding the
Sexually-Violent Predator Specifications attached to Counts Nine and Ten of the
indictment. Both the State and the Defendant were afforded an opportunity to present
evidence and testimony, which the State did. The Defendant did not present any
evidence or testimony. Upon consideration of the evidence presented, the Court found
the Defendant Guilty beyond a reasonable doubt that he is a Sexually-Violent Predator
as alleged in Specification Two to Count Nine and Specification Two to Count Ten.
Following the Court’s determination of the Sexually-violent Predator
specifications to Counts Nine and Ten, as of May 11, 2018, the Defendant has pled
guilty to or been found guilty of all offenses in all Counts of the Indictment, as well as all

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 2 of 14

specifications to those offenses, including the Sexually-Violent Predator specifications
attached to Counts Nine and Ten.
Following the bench trial on May 11, 2018, the Court addressed the matter of
merger of offenses with counsel. The Defendant was present during the merger
discussion. Consistent with the legal argument of the prosecuting attorney, and the
facts supporting the various charges, the Court found that Counts One and Two (both
Aggravated Murder charges), merged for sentencing purposes, with the State electing
to proceed with sentencing on Count One. The Court further found that Counts Seven
and Eight (both Aggravated Murder charges), merged for sentencing purposes, with the
State electing to proceed with sentencing on Count Seven. Finally, the Court found that
Counts Nine and Ten merge for sentencing purposes, with the State electing to proceed
with sentencing on Count Nine. The Court discussed the possible merger of other
offenses contained in the indictment, but found that the remaining offenses were
committed with separate animus, even where the offenses are otherwise of similar
import. The Court therefore found that no other offenses merge for purposes of
sentencing.
Following publication of the Jury’s verdicts on May 7, 2018, the Court had
advised the Defendant of his right, prior to conducting the Sentencing Phase Jury Trial,
to request a presentence investigation and/or the appointment of a psychologist or
psychiatrist to conduct a mental health examination pursuant to R.C. 2929.03(D)(1) and
R.C. 2947.06. The Court further advised the Defendant that any reports so prepared
would be provided to the Court, counsel, the Defendant and the jury. The Defendant

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 3 of 14

did not request any presentence investigation or mental health examination prior to
proceeding with the Sentencing Phase of the trial.
The Court had advised the Defendant on May 7, 2018 that he may make a
statement during the Sentencing Phase of the trial, under oath or not under oath. The
Defendant was advised that if he makes a statement under oath, the prosecuting
attorney may cross-examine the Defendant. The Defendant was advised that if he
makes a statement that is not under oath, the prosecuting attorney will be prohibited
from cross-examining the Defendant, but may be permitted to present evidence in
rebuttal to the Defendant’s unsworn statement.
On May 18, 2018, the Sentencing Phase of the trial was conducted. The Jury
heard the evidence presented by the State, and counsel for Defendant. The Defendant
did not make any statement to the jury, sworn or unsworn and the State did not present
rebuttal evidence.
The Jury commenced deliberation as to the Sentencing Phase for Counts One
and Seven on May 18, 2018. The Jury was sequestered during its deliberations, and
returned verdicts as to Counts One and Seven on May 18, 2018, unanimously finding
that the aggravating circumstances associated with the Count One offense of
Aggravated Murder, do outweigh the mitigating factors presented in this case by proof
beyond a reasonable doubt. The Jury therefore determined that the death sentence
should be imposed on the Defendant for the Count One offense of Aggravated Murder.
The Jury also unanimously found that the aggravating circumstances associated
with the Count Seven offense of Aggravated Murder, do outweigh the mitigating factors
presented in this case by proof beyond a reasonable doubt. The Jury therefore

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 4 of 14

determined that the death sentence should be imposed on the Defendant for the Count
Seven offense of Aggravated Murder.
The Court undertook an independent evaluation of the evidence offered by both
parties and the arguments of counsel. After having conducted that analysis, the Court
found that the State of Ohio proved beyond a reasonable doubt that the aggravating
circumstances attached to Count One outweigh the mitigating factors. The Court found
separately that the State of Ohio proved beyond a reasonable doubt that the
aggravating circumstances attached to Count Seven outweigh the mitigating factors.
The Court ordered that a sentence of death be imposed both as to Count One and
Count Seven.
Prior to imposing sentence, the Court afforded defense counsel an opportunity to
speak on behalf of the Defendant, afforded the Defendant an opportunity to make a
statement on his own behalf or to present any information in mitigation of punishment,
afforded the prosecuting attorney an opportunity to speak; and heard from any victims’
representatives that wished to speak. Mr. Grate did make a statement on his own
behalf.
Before imposing sentence, the Court considered the criteria for imposing
sentences in capital cases set forth in R.C. 2929.04. The Court also reviewed and
considered the principles and purposes of felony sentencing under R.C. 2929.11 and
has balanced the seriousness and recidivism factors under R.C. 2929.12. The Court
also considered whether the presumption in favor of imprisonment, where applicable for
the remaining Counts, had been overcome and found that it had not.

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 5 of 14

Upon consideration of the statutory criteria for imposing sentences in capital
cases, as further outlined in this Court’s sentencing opinion, and upon consideration of
the purposes and principles of the felony sentencing law, the statutory sentencing
factors, and after weighing the relevant seriousness and recidivism factors, this Court
finds that the Defendant is NOT amenable to community control sanctions and that a
prison sentence is consistent with the purposes and principles of the felony sentencing
law of Ohio for all non-capital charges not otherwise addressed by the Court’s
sentencing opinion.
The Court then imposed the following sentence:
1.

As stated in Count One of the Indictment for the offense of AGGRAVATED
MURDER with death penalty specifications, in violation of Ohio Revised Code
Section 2903.01(A), an unclassified felony, the Defendant is sentenced to death
by lethal injection. The Court further orders that the death penalty be carried
out by appropriate authorities on September 13, 2018. The execution date shall
be subject to further order by a court of competent jurisdiction.

2.

As stated in Count Seven of the Indictment for the offense of AGGRAVATED
MURDER with death penalty specifications, in violation of Ohio Revised Code
Section 2903.01(A), an unclassified felony, the Defendant is sentenced to death
by lethal injection. The Court further orders that the death penalty be carried
out by appropriate authorities on September 13, 2018. The execution date shall
be subject to further order by a court of competent jurisdiction.

3.

As stated in Count Three of the Indictment for the offense of KIDNAPPING, in
violation of Ohio Revised Code Section 2905.01(A)(3), a felony of the first (1st)

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 6 of 14

degree, the Defendant is sentenced to 10 years imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.
4.

As stated in Count Four of the Indictment for the offense of GROSS ABUSE OF
A CORPSE, in violation of Ohio Revised Code Section 2927.01(B), a felony of
the fifth (5th) degree, the Defendant is sentenced to 12 months imprisonment
under the authority of the Ohio Department of Rehabilitation and Correction for
placement in an appropriate penal institution. No fine is imposed.

5.

As stated in Count Five of the Indictment for the offense of BURGLARY, in
violation of Ohio Revised Code Section 2911.12(A)(3), a felony of the third (3rd)
degree, the Defendant is sentenced to 12 months imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.

6.

As stated in Count Six of the Indictment for the offense of TAMPERING WITH
EVIDENCE, in violation of Ohio Revised Code Section 2921.12(A)(1), a felony of
the third (3rd) degree, the Defendant is sentenced to 12 months imprisonment
under the authority of the Ohio Department of Rehabilitation and Correction for
placement in an appropriate penal institution. No fine is imposed.

7.

As stated in Count Nine of the Indictment for the offense of KIDNAPPING, with
a sexually-violent predator specification, in violation of Ohio Revised Code
Section 2905.01(A)(4), a felony of the first (1st) degree, the Defendant is
sentenced to an indefinite mandatory sentence of 15 years to life

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 7 of 14

imprisonment under the authority of the Ohio Department of Rehabilitation and
Correction for placement in an appropriate penal institution. No fine is imposed.
8.

As stated in Count Eleven of the Indictment for the offense of RAPE, with a
sexually-violent predator specification, in violation of Ohio Revised Code Section
2907.02(A)(2), a felony of the first (1st) degree, the Defendant is sentenced to an
indefinite mandatory sentence of 15 years to life imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.

9.

As stated in Count Twelve of the Indictment for the offense of AGGRAVATED
ROBBERY, in violation of Ohio Revised Code Section 29011.01(A)(4), a felony
of the first (1st) degree, the Defendant is sentenced to 5 years imprisonment
under the authority of the Ohio Department of Rehabilitation and Correction for
placement in an appropriate penal institution. No fine is imposed.

10.

As stated in Count Thirteen of the Indictment for the offense of GROSS ABUSE
OF A CORPSE, in violation of Ohio Revised Code Section 2927.01(B), a felony
of the fifth (5th) degree, the Defendant is sentenced to 12 months imprisonment
under the authority of the Ohio Department of Rehabilitation and Correction for
placement in an appropriate penal institution. No fine is imposed.

11.

As stated in Count Fourteen of the Indictment for the offense of
UNAUTHORIZED USE OF A MOTOR VEHICLE, in violation of Ohio Revised
Code Section 2913.03(B), a felony of the fifth (5th) degree, the Defendant is
sentenced to six (6) months imprisonment under the authority of the Ohio

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 8 of 14

Department of Rehabilitation and Correction for placement in an appropriate
penal institution. No fine is imposed.
12.

As stated in Count Fifteen of the Indictment for the offense of KIDNAPPING,
with a sexually-violent predator specification, in violation of Ohio Revised Code
Section 2905.01(A)(4), a felony of the first (1st) degree, the Defendant is
sentenced to an indefinite mandatory sentence of 15 years to life
imprisonment under the authority of the Ohio Department of Rehabilitation and
Correction for placement in an appropriate penal institution. No fine is imposed.

13.

As stated in Count Sixteen of the Indictment for the offense of RAPE, with a
sexually-violent predator specification, in violation of Ohio Revised Code Section
2907.02(A)(2), a felony of the first (1st) degree, the Defendant is sentenced to an
indefinite mandatory sentence of 15 years to life imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.

14.

As stated in Count Seventeen of the Indictment for the offense of RAPE, with a
sexually-violent predator specification, in violation of Ohio Revised Code Section
2907.02(A)(2), a felony of the first (1st) degree, the Defendant is sentenced to an
indefinite mandatory sentence of 15 years to life imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.

15.

As stated in Count Eighteen of the Indictment for the offense of RAPE, with a
sexually-violent predator specification, in violation of Ohio Revised Code Section
2907.02(A)(2), a felony of the first (1st) degree, the Defendant is sentenced to an

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 9 of 14

indefinite mandatory sentence of 15 years to life imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.
16.

As stated in Count Nineteen of the Indictment for the offense of ROBBERY, in
violation of Ohio Revised Code Section 2911.02(A)(3), a felony of the third (3rd)
degree, the Defendant is sentenced to 12 months imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.

17.

As stated in Count Twenty of the Indictment for the offense of BURGLARY, in
violation of Ohio Revised Code Section 2911.12(A)(3), a felony of the third (3rd)
degree, the Defendant is sentenced to 12 months imprisonment under the
authority of the Ohio Department of Rehabilitation and Correction for placement
in an appropriate penal institution. No fine is imposed.

18.

As stated in Count Twenty-One of the Indictment for the offense of
BURGLARY, in violation of Ohio Revised Code Section 2911.12(A)(3), a felony
of the third (3rd) degree, the Defendant is sentenced to 12 months imprisonment
under the authority of the Ohio Department of Rehabilitation and Correction for
placement in an appropriate penal institution. No fine is imposed.

19.

As stated in Count Twenty-Two of the Indictment for the offense of
BURGLARY, in violation of Ohio Revised Code Section 2911.12(A)(3), a felony
of the third (3rd) degree, the Defendant is sentenced to 12 months imprisonment
under the authority of the Ohio Department of Rehabilitation and Correction for
placement in an appropriate penal institution. No fine is imposed.

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 10 of 14

20.

As stated in Count Twenty-Three of the Indictment for the offense of
BREAKING AND ENTERING, in violation of Ohio Revised Code Section
2911.13(A), a felony of the fifth (5th) degree, the Defendant is sentenced to six
(6) months imprisonment under the authority of the Ohio Department of
Rehabilitation and Correction for placement in an appropriate penal institution.
No fine is imposed.
The Court further finds that consecutive service of the sentences imposed

above, for Counts One, Seven, Nine, Eleven, Fifteen, Sixteen, Seventeen and Eighteen,
is necessary to protect the public from future crime; that consecutive sentences are not
disproportionate to the seriousness of the offenders conduct and the significant danger
Shawn M. Grate poses to the public should he ever be released from prison; that at
least two (and more) of the multiple offenses were committed as part of one or more
courses of conduct, and the harm caused by the multiple offenses so committed, is so
great and unusual, that no single prison term for any of the offenses committed as part
of the multiple courses of conduct adequately reflects the seriousness of Shawn M.
Grate’s conduct; and that the offender’s history of criminal conduct demonstrates that
consecutive sentences are necessary to adequately protect the public from future crime
by Shawn M. Grate. The Court therefore ORDERS that the sentences imposed above
for Counts One, Seven, Nine, Eleven, Fifteen, Sixteen, Seventeen and Eighteen,
inclusive of the two death sentences attached to Counts One and Seven, and the six
mandatory 15 year-to-life sentences imposed for Counts Nine, Eleven, Fifteen, Sixteen,
Seventeen and Eighteen shall all be served consecutively to one another
(mandatory 90 years to life, with two death sentences). The sentences imposed for

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 11 of 14

Counts three, four, five, six, 12, 13, 14, 19, 20, 21, 22 and 23 shall be served
concurrently to one another, and concurrent to the sentences imposed for Counts One,
Seven, Nine, Eleven, Fifteen, Sixteen, Seventeen and Eighteen.
The Defendant shall receive credit against the aggregate prison sentences for
time already served in the Ashland County Jail through and including June 1, 2018,
which is 640 days. The Defendant shall receive one additional day credit for each day
served in the Ashland County Jail pending his delivery to the Department of
Rehabilitations and Corrections for placement.
The Court notified the Defendant of the applicable periods of post-release
control and the potential consequences of a violation of post-release control should he
ever be released from prison. Upon completion of the prison terms ordered herein, the
Defendant shall serve a mandatory term of five (5) years post-release control as
determined pursuant to Ohio Revised Code Section 2967.28. If the Defendant violates
the terms of post-release control, the adult parole authority may impose a more
restrictive sanction, or the parole board may return the Defendant to prison for up to
nine months for each violation, but not more than half of the original prison sentence. If
the Defendant commits a new felony while on post-release control, he may be given a
prison sanction of the greater of 12 months or the time remaining on post-release
control, in addition to and consecutive to any sentence received on the new felony
offense. The Defendant acknowledged his understanding of the Court’s explanation of
post-release control. For purpose of post-release control, the Court FINDS that the
Defendant’s county of residence is Ashland County, Ohio.

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 12 of 14

The Defendant received verbal and written notification of his duties to register
as a sex offender pursuant to R.C. 2950.03. The Defendant acknowledged that he
understood those duties. The Defendant will be classified as a Tier III Sex Offender and
is required to register his residence, place of employment and higher education every
90 days for his lifetime, should he be released from prison.
The Court advised the Defendant of his ineligibility for earning good credit
against his prison sentence, since all consecutive sentences are mandatory sentences.
The Court notified the Defendant of his appellate rights, and informed the
Defendant of his right to appeal the jury’s verdicts, the Court’s findings of guilt as to
two sexually-violent predator specifications (Counts Nine and Ten), the sentence of this
Court, and of his right to court-appointed counsel to represent him in the appeal.
Because the Court is imposing a sentence of death for Counts One and Seven, the
Court appoints Attorney Donald R. Hicks (S.Ct. #034221), 159 S. Main St., #423, Akron,
Ohio 44308, phone: 330-762-5500, as lead death penalty appellate counsel for
Defendant, and Donald M. Gallick (S.Ct. #073421), 190 N. Union St., #102, Akron, Ohio
44304-1362, phone: 330-631-6892 as death penalty co-appellate counsel for
Defendant.
The Defendant is hereby remanded to the custody of the Ashland County
Sheriff’s Office to await transportation to the appropriate state penal receiving institution.
The Clerk of Courts is directed to issue a warrant of conveyance to the Ashland County
Sheriff directing him to deliver the Defendant to the Ohio Department of Rehabilitation
and Correction, Lorain Correctional Institution, Reception Center, Grafton, Ohio, or any
alternative location as the Ohio Department of Rehabilitation and Correction may direct,

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 13 of 14

for placement in an appropriate penal institution to be held on death row pending his
execution.
All fines and court costs are hereby waived.
Bond is released.
It is so ordered.

________________________________
Ronald P. Forsthoefel, Judge

Hon. Ronald P. Forsthoefel, Judge, Common Pleas Court of Ashland County, Ohio

Page 14 of 14

